--   4-
             -.                                                                       -


2:j!
 +        *PL*    s~,                                  NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
 2                                                       OFFICE OF INVESTIGATIONS
     4
                                                 CLOSEOUT MEMORANDUM                                           /I
          &N o nq\'


Case Number: I03090038                                                                             Page 1 of 1


                                                                                                      Ii
             An internal review of the Government Travel Credit Card Program by the National Science
             Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
             of the government travel card.

                                                  '
             A review of the subject employee's travel card statement transaction reports, during the period
             3/26/02 through 7/09/02, reflected multiple cash withdrawals in excess of $4,000 dollars. The
             employee advised that she always paid the monthly bill.                                   11
                                      <                                                                     l
             During OIG's interview of the subject employee, she acknowledged unauthorized use of the
             travel card, stating that she made the cash with drawls to purchase personal items, to include food
             and clothing for her children.

             NSFIOIG referred this case to the United States Attorney's Office, Eastern District of Virginia
             who declined prosecution in lieu of agency administrative action.                          /I

             OIG7sreferral to NSF resulted in the subject employee receiving counseling fiom her supervisor.
             The subject employee was also directed to complete the Division of Financial Management's
             (DFM) on line training module and provide highlights of the training to her supervisor and work
             with her supervisor in coordinating use of the training to the rest of the staff. The official record
             of counseling is attached and constitutes part of this closeout document.
                                                                                                           I/
                                                                                                            I


             Accordingly, this case is closed




                                                                                                           I




             ' Footnote Redacted

NSF OIG Form 2 (1 1/02)
                                                                                                           'I
                                                                                                           i
                                                                                                           !
                            -
    I   ..
                                          NATIONAL SCIENCE FOUNDATION
    I                                              MEMORANDUM
                                       DIRECTORATE FOR
    1
                                        DIVISION OF
                                                  Arlington, VA 22230


              Date:         0

              To:            I
              From:


              Re:             Conknation of Counseling
                                                rr
              This correspondence is to confirm our conversation- o                    which-
              and I discussed with you your misuse of your Government-~rav~l     Credit Card after it was
              brought to our attention through a report from the Office of Inspector General (OIG), Natibnal
              Science Foundation (NSF).
                                                                                                               2   *
             h-te                       OIG issued the results of their investigation into ~overnmentTravel
                 Credit Card delinquency and misuse. In it, a detailed review was conducted on the activity of
                 your account. The review showed multiple and frequent ATM withdrawals, and other charges to
                 your travel card made during times when you were not on official travel. Therefore, your use of
                 the card on these occasions was unauthorized. As we discussed, the govement travel card is
                 only for appropriate business use while on official travel. As representatives of the NSF, we are
                 responsible for using the Government Credit Card in an authorized and appropriate manner.

              Upon consideration of this matter, I believe it would be beneficial for you to complete the
              Division of Financial Management's @FM) on-line training module, found at DFM's int.ra.net
              site: htt~://www.inside.nsfkov/travel/travelcard.htm.I would like for you to provide highlights of this
              training and work with me in coordinating its use by the rest of the staff.
I
I
             O
             -U            are a valued member of our staff, and your contributions make a difference. I am
1
I             issuing this memo to confirm that we had a discussion on this matter, aqd that I am satisfied with
              its outcome. I do not believe any further action to be necessary. This document d l 1 not be filed
              in your Official Personnel Folder, as it is considered to be an informal memorandum.
